   Office of Inspector General

        Audit Report

     FAA IS MAKING PROGRESS BUT
   IMPROVEMENTS IN ITS AIR TRAFFIC
CONTROLLER FACILITY TRAINING ARE STILL
               NEEDED
        Federal Aviation Administration

         Report Number: AV-2013-121
         Date Issued: August 27, 2013
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Is Making Progress but                        Date:   August 27, 2013
           Improvements in Its Air Traffic Controller
           Facility Training Are Still Needed
           Federal Aviation Administration
           Report Number AV-2013-121

  From:    Jeffrey B. Guzzetti                                   Reply to
                                                                 Attn. of:   JA-10
           Assistant Inspector General
             for Aviation Audits

    To:    Federal Aviation Administrator

           The Federal Aviation Administration (FAA) plans to hire and train more than
           11,700 new air traffic controllers through fiscal year 2021 to offset expected
           retirements of those hired after the 1981 controller strike. This presents significant
           challenges for the Agency as new controllers can require more than 3 years of
           training to become fully certified to work in one of FAA’s more than 300 air
           traffic facilities. We have been reviewing FAA’s controller training program for
           nearly 10 years (see exhibit C for a list of all related Office of Inspector General
           (OIG) reports). Our work has found that the program is extremely decentralized
           for a national program of this size and that the efficiency and quality of training
           varies extensively by facility location.

           Accordingly, we initiated this audit to assess the status of FAA’s progress in
           advancing this important program. Specifically, our objectives were to (1) identify
           FAA’s progress in improving the facility training program for air traffic
           controllers and (2) assess challenges that FAA faces in achieving controller
           training goals. We conducted this audit in accordance with generally accepted
           Government auditing standards. Exhibit A details our scope and methodology.

           RESULTS IN BRIEF
           Over the last few years, FAA has begun improving its controller training program.
           For example, in May 2011 FAA created an Independent Review Panel (IRP) of
           industry and academic professionals to evaluate how the Agency hires, assigns,
           and trains new controllers. In September 2011, the panel made
                                                                                                                    2


49 recommendations, many addressing our previous recommendations, that could
significantly improve the controller hiring and training processes. FAA
consolidated the IRP recommendations into 20 projects covering a broad range of
categories, including FAA Academy training, facility training, professional
standards, organizational structure, and the selection process for controllers. To
date, FAA has focused primarily on developing initiatives to address the
weaknesses in its facility training program that the IRP identified, such as the need
to upgrade training laboratories. However, almost 2 years after issuance of the IRP
report, FAA has yet to implement any of the IRP recommendations or establish
completion timeframes.

FAA faces significant challenges in enhancing its training program, particularly its
goal to reduce training times. The average training time for new controllers rose
by 41 percent, from 1.9 years in fiscal year 2009 to an average of 2.68 years in
fiscal year 2012. First, FAA is not effectively managing training resources through
its Air Traffic Controller Optimum Training Solutions (ATCOTS) contract. FAA
awarded ATCOTS in 2008 to provide controller training support, reduce total
training time and costs, and develop training innovations. 1 However, recent
ATCOTS cost overruns reduced training support by 62 percent at all 22 en route
centers with little advance notice to facilities. In addition, management turnover in
FAA’s Office of Technical Training has impeded communication between
headquarters and the field, exacerbating problems from the decentralized
management of the national training program. Finally, FAA faces a potential
shortage of certified professional controllers (CPC) needed to operate its busiest,
most complex air traffic control facilities and conduct on-the-job training (OJT).
As we recommended in 2008, FAA encouraged more experienced FAA
controllers to transfer to such facilities. This resulted in some overall improvement
in CPC staffing at those locations since 2009.

We are making a series of recommendations to assist FAA in improving its facility
training efforts.

BACKGROUND
Newly hired controllers must complete a demanding training program that
includes learning the basic concepts of air traffic control at the FAA Academy,
followed by extensive facility training at their assigned location. Facility training
is conducted in stages and consists of a combination of classroom, simulation, and
OJT. After controllers complete classroom and simulation training (if applicable),2
they begin OJT, which is conducted exclusively by CPCs, who teach and observe

1
  The $859 million ATCOTS contract consists of a 5-year base period, worth $437 million, and two option periods (a 3-
year period and a 2-year period), worth $422 million.
2
  Most controllers train with simulators, but some controllers at non-radar tower facilities do not use simulators for
training.
                                                                                                                          3


new controllers individually as they control live air traffic at various assigned
control positions. 3 FAA’s goal is to have controllers at en route facilities complete
training in less than 3 years, 4 and to have controllers at terminal facilities complete
training in less than 2 years. 5

New controllers achieve certification on each position as they move through
facility training. After they have certified on all positions within their assigned
area, they are commissioned as a CPC at that facility. Training new controllers to
the CPC level is important for two reasons: (1) only CPCs are qualified to control
traffic at all positions of their assigned area, and (2) only CPCs certified for at
least 6 months 6 (at their assigned locations) can become OJT instructors for other
new controllers.

FAA has also contracted some controller facility training support through the
ATCOTS contract, which it awarded in 2008. FAA’s long-term goals for
ATCOTS are to reduce training costs, reduce training time, improve training
quality and consistency, leverage best practices and innovation, and develop
flexible training. However, our 2010 review 7 of ATCOTS determined that FAA
was not achieving ATCOTS program goals. We are currently performing a
separate follow up audit of the ATCOTS contract. 8

FAA DEVELOPED IMPORTANT INITIATIVES TO IMPROVE
FACILITY TRAINING BUT HAS NOT YET IMPLEMENTED THEM
In response to the IRP’s 49 recommendations, FAA organized 20 projects to
improve the controller training program. However, almost 2 years after issuance of
the IRP report, none of the projects have been implemented and timeframes for
doing so are unknown. Further, FAA has not established a way to track the impact
of its planned initiatives on controller training outcomes, such as completion rates
and certification times.

These 20 planned projects address issue areas related to facility training, such as
screening and hiring, facility placement, OJT instructor improvements, simulation
and technology improvements, and curriculum redesign. Many of the IRP’s
3
  Air traffic controllers work in teams, with each control position responsible for a specific set of duties, such as
managing takeoffs at an airport.
4
  Controllers at en route facilities control high altitude traffic as aircraft travel designated routes between airports. En
route facilities are among the busiest and most complex facilities, so training time targets are normally higher than
terminal facilities.
5
  Controllers at terminal facilities maintain the flow of air traffic in and around airports. Terminal facilities vary in
complexity and comprise a wide range of air traffic facilities.
6
  FAA has a change pending to increase the requirement to be an OJTI from 6 months as a CPC to 1 year.
7
  FAA’s Air Traffic Controller Optimum Training Solution Program: Sound Contract Management Practices Are
Needed to Achieve Program Outcomes (OIG Report No. AV-2010-126), September 30, 2010. OIG reports are available
on our Web site at http:///www.oig.dot.gov/.
8
  Follow-Up on FAA’s ATCOTS Contract Challenges (OIG Audit Announcement No. 12Z3002Z000), February 7,
2012.
                                                                                                                    4


recommendations echoed the results of our previous work on controller training,
which was cited frequently in the IRP report. 9 (See exhibit D for a list of related
open OIG recommendations and the corresponding IRP recommendations). If
effectively implemented, FAA’s initiatives have the potential to improve
controller training as follows:

• Screening and Hiring—Previous studies by MITRE, OIG, and the IRP
  determined that FAA did not adequately assess the aptitude of controller
  candidates prior to assigning them to the busiest and most complex facilities.
  FAA’s ongoing projects to address these issues include improving the hiring,
  selection, and interview processes, and expanding pre-hire testing with the Air
  Traffic Selection and Training test (AT-SAT). 10 However, these projects have
  not been completed and no implementation date has been set.

• Placement in Air Traffic Facilities—Prior to basic training at the FAA
  Academy, controller candidates are assigned to an air traffic facility based on
  the candidate’s location and facility type preference (en route or terminal) and
  FAA’s staffing needs. To reduce training attrition for newly hired controllers at
  the busiest and most complex facilities, we recommended in 2010 11 that FAA
  study restructuring the placement process to include performance at the FAA
  Academy. FAA agreed to complete a study and assigned the IRP with the task
  of evaluating the placement process. The IRP also recommended using a
  candidate’s performance at the FAA Academy to aid in a placement decision.
  However, almost 2 years after the IRP recommendation, FAA has not
  established an implementation date.

• On-The-Job Training Instructor Improvements—In a 2011 FAA report, 12
  43 percent of surveyed OJT instructors stated that their initial training did not
  address the skills and techniques required to be an effective instructor.
  However, other than a 3-day introductory course for OJT instructors, and an
  online refresher course that has not been updated since 1998, there is no formal
  program or resource to assist OJT instructors in improving their teaching skills.
  FAA has developed a new training program for OJT instructors but has not
  offered any of the newly developed courses yet due to lack of funding.

• Simulation and Technology Improvements—Through use of different
  simulation capabilities, FAA hopes to reduce training times and realize cost
  savings. FAA is currently developing a plan that describes the strategy for use
  of simulator technology (in addition to the high-fidelity Tower Simulation

9
  DOT OIG reports were cited 12 times in the IRP report.
10
   AT-SAT is a streamlined screening tool intended to identify candidates with the best controller aptitudes.
11
   Review of Screening, Placement and Initial Training of Newly Hired Air Traffic Controllers (OIG Report No. AV-
2010-049), April 1, 2010.
12
   FAA, “On the Job Training Instructor Refresher Training, Data Analysis Report,” Washington, DC.
                                                                                                                         5


     Systems already in place) during facility training and at the FAA Academy.
     The scope of the plan will include simulation technology, speech recognition,
     and centralized support functions. To date, FAA has not completed or
     established an implementation date.

•    Curriculum Architecture and Course Redesign—FAA is currently
     redesigning the entire training curriculum for air traffic controllers in an effort
     to significantly improve training outcomes. Internal FAA studies have
     indicated that the current air traffic curriculum focuses on learning air traffic
     principles and rules, instead of the ability to perform the services of an air
     traffic controller. However, course redesign efforts have been underway since
     2008, and progress has been slowed by contractual issues, reorganization of
     technical training, and staff turnover. It is currently unclear when the potential
     benefits of changes to curriculum architecture and course redesign will be
     realized. (See table 1 for a summary of FAA’s efforts and progress with
     redesigning its controller training.)

Table 1. Current Course Redesign Efforts and Progress

Course                                 Location                        In Development                Completed

Air Traffic Basics                     FAA Academy                     No                            No
Initial Tower Cab                      FAA Academy                     No                            No
Training 13
Terminal Radar Approach                FAA Academy                     Yes                           No
Control Courses
En Route Stages 2–4                    Field Facilities                Yes                           No
Terminal Stages 2–7                    Field Facilities                No                            No
Source: 2012 MITRE Report and FAA

•    Local Air Traffic Facility Initiatives—In addition to the IRP
     recommendations, we identified initiatives that were developed independently
     at air traffic facilities. Recently, some facilities have taken steps to improve
     their facility training by developing training practices unique to their location.
     For example, at one facility, managers incorporated technology advancements
     into their training program by using tablet computers and providing students
     with user-friendly methods of accessing current and complete training
     information. Another facility’s staff recorded student performance in a
     simulation lab and replayed the student’s responses to various scenarios to
     identify areas for improvement. However, FAA does not have a mechanism to

13
  Air traffic controllers working in tower cabs manage traffic within a few miles of the airport. They instruct pilots
during taxiing, takeoff, and landing, and grant clearance for the aircraft to fly.
                                                                                                                      6


     evaluate whether any of these initiatives could be implemented nationally as
     best practices.

FAA’s Controller Workforce plan, first issued in 2004, is a congressionally
directed annual plan detailing FAA’s strategy for hiring new controllers to replace
those expected to leave over the next 10 years. The 2004 Plan also outlined
various initiatives for decreasing controller training times and costs. In our 2008
report 14 on facility training, we found that while the annual Controller Workforce
Plan presented a comprehensive list of initiatives for training new controllers, each
subsequent update provided fewer details concerning the status of the training
initiatives. However, the most recent annual report does not mention any new
training initiatives or any details of progress made on previous training initiatives.

FAA FACES SIGNIFICANT CHALLENGES TO ENHANCE ITS
FACILITY TRAINING PROGRAM
FAA continues to face multiple challenges to enhancing its controller training
program and achieving its stated goals. These include addressing the increase in
training times, managing training resources through the ATCOTS contract,
maintaining consistent leadership of the nationwide program, measuring the
impact of simulators and other training initiatives, and improving staffing
composition at complex facilities through controller placement and screening
programs. Addressing these challenges will be critical to achieve the full potential
of FAA’s current and future controller training efforts.

Training Times Continue To Increase
Although FAA has implemented training initiatives to reduce the time required to
certify new controllers, such as the increased use of high fidelity simulators, the
average overall time to train a controller has increased 41 percent, from 1.9 years
in fiscal year 2009 to 2.68 years in fiscal year 2012. Air traffic and training
managers attribute the increased training times to several factors, such as poorly
prepared new hires, airspace redesign, new technology training, increased
proficiency and refresher training for CPCs, and decreased contractor support
resources. As these various factors illustrate, FAA still faces numerous challenges
in meeting its goals for reducing controller training times. Table 2 details the
average time to certify controllers that have become CPCs since 2009. 15




14
  Review of the Air Traffic Controller Facility Training Program (OIG Report No. AV-2008-055), June 5, 2008.
15
  FAA calculates this average time based on the number of controllers who certify each fiscal year, as published in the
2012 Controller Workforce Plan. We validated the methodology and tested the accuracy of the underlying data, and
concluded that these published times are accurate.
                                                                                                                          7


Table 2. Average Time to CPC for Newly Hired Controllers

 Facility                FY 2009                  FY 2010                 FY 2011                  FY 2012
 Overall                 1.9                      2.21                    2.51                     2.68
 En Route                2.43                     2.66                    2.89                     3.07
 Terminal                1.54                     1.95                    2.28                     2.42
Source: FAA Office of Labor Analysis

FAA’s goal is to have en route facility controllers complete training in less than
3 years, and to have terminal controllers complete training in less than 2 years.
These times include training at the FAA Academy, classroom, simulation lab, and
OJT at the air traffic facility.

Uncertain ATCOTS Training Resources Have Hindered Training
Efforts at Some Facilities
FAA has contracted some controller facility training support through the ATCOTS
contract, which it awarded in September 2008. However, since its implementation
in fiscal year 2009, ATCOTS has not had a measurable positive impact on facility
training. In addition to overall facility training times increasing nationwide,
training costs increased by $46 million over the first 2 years of ATCOTS.
Moreover, despite ATCOTS’ goals to leverage best practices and innovation to
improve training, we found no significant innovations. Training initiatives have
been mostly FAA-driven, with little or no input from the contractor—in part
because cost overruns and other contract issues have limited the program’s
progress. 16

In July 2012, facing cost overruns and other contractual issues, FAA reduced its
use of ATCOTS contract resources by 62 percent at all 22 en route centers.
Facility managers were not given any advanced notice of this reduction, and the
staff at these facilities expressed a concern that FAA headquarters did not consider
their suggestions of what resources to cut to mitigate training challenges. This
sudden and significant decrease in contract training support at some of the busiest
and most complex locations hinders FAA’s efforts to achieve its controller
training goals. For example, managers at the Memphis Center are expecting to
begin training their entire workforce on the En Route Automation Modernization
program (ERAM). Given the recent reduction in ATCOTS resources, the
Memphis Center managers are preparing to supplement training by using certified
controllers already assigned air traffic control positions. As a result of moving
experienced controllers from day-to-day operations, facility managers expect an

16
   These issues, such as undefined requirements and cost overruns, will be discussed in detail in our separate, ongoing
audit of the ATCOTS contract. See OIG Audit Announcement No. 12Z3002Z000, Follow-Up on FAA’s ATCOTS
Contract Challenges, February 7, 2012.
                                                                                   8


increase in overtime and an increase in certification times as more time and
resources will be focused on ERAM training. FAA managers we interviewed at
Memphis, Chicago, Jacksonville, Washington, Oakland, and Atlanta en route
centers believed that the uncertainty with the ATCOTS contract support makes
managing the training program difficult. Further, some facilities are undergoing
major transformations and implementing new technologies and procedures,
potentially affecting the training times of controllers.

FAA Has Not Maintained Consistent Leadership in Its Air Traffic
Controller Technical Training Office
FAA’s controller training program has experienced multiple reorganizations and
leadership changes. Since 2009, there have been three major reorganizations
within the program office. The first two of these reorganizations were due to staff
turnover as well as concerns about a lack of centralized guidance for the program.
Most recently, in January 2012, FAA reorganized its controller training program
office by combining the Office of Technical Training with the Office of Safety.
Through this reorganization, FAA hopes to improve training by incorporating
recent safety analysis into current training.

FAA’s frequent leadership changes have negatively impacted its ability to
communicate effectively with the field. During our site visits, we found that
communication between FAA Headquarters and the managers at the facilities was
poor. The facility staff we interviewed did not know who to contact with questions
about training resources and stated that training guidance from FAA headquarters
has been constantly changing. According to the training managers we interviewed,
monthly training teleconferences were ended and the annual training conference
was cancelled. Overall, FAA’s facility training program continues to be
decentralized and training outcomes vary substantially between facilities.

FAA Lacks Mechanisms To Track New or Existing Training Initiatives
and Measure the Impact of Simulators
FAA does not have an effective method to track innovations or contributions from
ATCOTS or other training initiatives, including the IRP recommendations. While
FAA currently has at least six different systems for tracking controller training
data, none of these systems contain the entire training record for controllers (see
table 3). As a result of these numerous systems and incomplete records, it is
difficult to isolate training efforts and measure their impact on controller training
progress.
                                                                                             9


Table 3. FAA Controller Training Data Systems
FAA System                      Description
National Training Database      FAA’s primary tool for national oversight of the
(NTD)                           controller training program. Tracks the progress of
                                developmental controllers at air traffic facilities,
                                including training attrition data
Training and                    Tracks training requirements and maintains employee
Proficiency Record (TRAX)       training records
Quota Management and            Tracks training requirements and human resource
Resource Tool (QMART)           and hiring data
Comprehensive Electronic        Comprehensive data reporting, collection, and
Data Analysis and Reporting     analysis tool that tracks training requirements,
(CEDAR)                         Mandatory Briefing Items (MBI), and Quality
                                Assurance Reviews (QAR)
Electronic Learning             FAA's training and learning management system that
Management System (eLMS)        tracks training data and allows employees to take
                                online training and review their records

Federal Personnel Payroll       Official payroll system of the FAA, which is used to
System (FPPS)                   calculate certification times and training attrition rates

Source: OIG analysis

FAA staff believes that simulators have a positive impact on training outcomes,
and that they are an invaluable resource for providing the best training available.
However, since FAA does not have a system in place to measure and track the use
of training innovations, the measurable impact of simulator training remains
uncertain, especially given the rise in overall training times. In recent years, FAA
has increased use of air traffic control training simulators both at its Academy and
individual air traffic facilities. These simulators are used to train new hires and
retrain the existing workforce on new procedures. In addition, simulators are used
to provide refresher and proficiency training for certified controllers.

While there are many factors that likely contribute to the rise of training times,
isolating the impact of simulators from that of other factors contributing to training
times is difficult, especially without a mechanism for tracking training
innovations.

FAA’s Placement of Experienced FAA Controllers at Complex
Facilities May Improve Training Outcomes
Ensuring an effective staffing composition—or ratio between fully certified and
controllers-in-training—has been a key challenge for FAA’s controller training
program, especially at its most critical air traffic facilities. As we recommended in
                                                                                                                     10


2008 17 and 2012, 18 FAA encouraged experienced FAA controllers 19—i.e., those
controllers already fully certified at a lower-level facility—to move to busier and
more complex facilities. Since fiscal year 2009, the number of experienced
controllers in training at all facilities has increased by almost 90 percent, as shown
in figure 1.

Figure 1. Experienced FAA Controllers in Training Since Fiscal Year
2009
     1400


     1200

                                                                                                     1143
     1000
                                                                           965
      800


      600                                       695
                     606

      400


      200


        0
                   FY 2009                    FY 2010                   FY 2011                    FY 2012
 Source: OIG analysis of FAA data

Encouraging experienced controllers to transfer and train at the busiest and most
complex locations will likely improve overall staffing composition at facilities.
Experienced controllers complete training at their new location in significantly
less time and are less likely to fail training, especially at terminal facilities. 20

To further improve training outcomes and address the challenge of staffing
composition, FAA has also implemented a new screening program—the
Operational Assessment Program (OAP)—for selecting experienced controllers
for some of FAA’s most critical facilities. In May 2011, FAA implemented the
OAP at the Chicago, Atlanta, and Southern California Terminal Radar Approach

17
   Review of the Air Traffic Controller Facility Training Program (OIG Report No. AV-2008-055), June 5, 2008.
18
   Enhanced Oversight of Staffing and Training at FAA’s Critical Facilities Is Needed To Maintain Continuity of
Operations (OIG Report No. AV-2012-039), January 12, 2012.
19
   Experienced FAA controllers are Certified Professional Controllers-In-Training who have already completed facility
training at one location. They transfer to more complex facilities and must learn the airspace and procedures at the new
facility before they can control live traffic unassisted.
20
   We selected a stratified sample of 20 of 306 air traffic facilities based on type, complexity, and the number of
trainees.
                                                                                                                     11


Control (TRACON) facilities. This program allows FAA to evaluate the skill sets
of experienced controllers from less complex but comparable facilities (ATC level
9 or above) 21 who want to transfer to more complex (ATC Level 10 or above)
facilities. The Program includes a basic skills test that evaluates applicants on five
cognitive skills—communication, working speed, planning, prioritizing, and
aircraft speed control. After passing the skills test, applicants receive a package of
materials to review, and then spend a week in the classroom learning the new
airspace, local procedures, and basic radar techniques, before handling airspace
scenarios on a simulator. It takes 8 to 9 weeks of classroom and simulation
training for an applicant to complete the Program. Following completion, the
applicant begins OJT at the new facility. The goal of the Program is for each
transfer to become certified at their new facility in 15 to 18 months.

Since May 2011, five controllers at Chicago TRACON have become partially
certified and nine others are in facility training. Preliminary results suggest that
controllers selected through the OAP are progressing through their training faster
than those not selected through the OAP. However, the Program is still in its early
stages, and facility managers we interviewed stated that the Program’s impact on
training times and certification rates may not be known until later this year. 22

CONCLUSION
Training new air traffic controllers to replace the large numbers of retiring
controllers remains a key priority in maintaining the safety and efficiency of the
NAS—especially given the challenges this new workforce faces as it transitions to
the next generation of air traffic management technology. FAA recognized the
importance of this effort and has taken actions that have the potential to improve
its controller training program. However, FAA needs to track the progress of
implementing its initiatives, as well as put in place more efficient mechanisms for
assessing the impact of these initiatives on training times, completion rates, and
costs. Further steps are also needed to ensure that facilities have the training
support resources they need.




21
   FAA air traffic facilities are categorized into multiple levels (4 through 12); the higher the level, the greater the
demand on a controller’s judgment, skills, and decision-making abilities.
22
   The Atlanta and Southern California TRACONs have just selected their first class of experienced controllers through
the Program.
                                                                                 12


RECOMMENDATIONS
To improve FAA’s controller training program and track the effectiveness of its
new training initiatives, we recommend that FAA:

1. Reestablish a training initiatives section into the annual Controller Workforce
   Plan that introduces new initiatives and tracks the implementation of initiatives
   that are in progress.

2. Develop and implement a formal policy to identify and disseminate locally
   developed training initiatives for use as best practices nationwide.

3. Develop a policy that establishes how and when any national training
   initiatives would be measured for effectiveness.

4. Organize FAA controller training data into a single source that allows for
   detailed analysis of all training records for each controller.

5. Evaluate the Operational Assessment Program to determine if it can be used to
   improve staffing composition at all critical air traffic facilities.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on June 18, 2013, and received its formal
response on August 1, 2013. FAA’s response is included in its entirety as an
appendix to this report. In its response, FAA concurred with recommendations 2,
3, and 4 and provided reasonable timeframes for completing the appropriate
planned actions. We consider these recommendations resolved but open pending
completion of the planned actions. FAA partially concurred with
recommendations 1 and 5, as detailed below.

For recommendation 1, FAA stated that it agrees that tracking and monitoring of
training initiatives is important, but does not agree that reporting the impact of
these initiatives in the controller workforce plan is beneficial to stakeholders.
However, FAA has agreed to track and monitor air traffic controller training
initiatives and recently began publishing a semiannual report on newly hired air
traffic controller times and processes. This action meets the intent of our
recommendation, and we consider the recommendation closed.

For recommendation 5, FAA stated that the Operational Assessment Program
(OAP) is site-specific and cannot be used at all TRACONs without significant
costs and efforts. The Agency stated that it focused its OAP development efforts at
only three TRACONs thus far, and recently discontinued efforts at two of them
                                                                                 13


due to the investment required and a decrease in vacant positions. FAA also stated
that while it concurs with the need to evaluate the program for potential use at all
critical facilities, and will provide OIG with an update in 12 months, the Agency
cannot expand OAP to other facilities due to funding shortfalls and uncertainty
with its fiscal year 2014 budget. However, recognizing this uncertainty, we request
that the Agency provide us alternative plans for this recommendation in the
absence of adequate funding to ensure the OAP will continue to be evaluated.

ACTIONS REQUIRED
FAA’s planned actions for recommendations 2, 3, and 4 are responsive and we
consider these recommendations resolved but open pending completion of the
planned actions. We consider recommendation 1 closed, as detailed above. For
recommendation 5, we request that FAA provide us alternative plans to ensure the
OAP will continue to be evaluated. In accordance with Department of
Transportation Order 8000.1C, we request that FAA provide this additional
information within 30 days of this report.

We appreciate the courtesy and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at 202-366-
0500 or Bob Romich, Program Director, at (202) 366-6478.

                                         #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                                    14


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit from February 2012 to June 2013 in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives. Our site visits included the Federal
Aviation Administration (FAA) Headquarters, the FAA Academy, and 13 Air
Traffic Facilities (see exhibit B).
During the audit, we interviewed FAA officials from the Office of Technical
Training and Safety (for both terminal and en route), the Office of Labor Analysis,
and the ATCOTS Program Office to determine FAA’s planned initiatives intended
to improve the facility training program. During our site visits, we interviewed
facility managers, staff managers, training managers, NATCA representatives, and
Raytheon Technical Services (ATCOTS Contractor) employees to determine the
impact of prior initiatives on improving training outcomes. We also collected data
on certification times, staffing composition and training completion rates, and
locally developed initiatives intended to improve facility training for air traffic
controllers. We compared the statements of FAA officials to the data collected
during the site visits.
To determine if the certification times published in the 2012 Controller Workforce
Plan were accurate, we selected a stratified sample of 20 of 306 air traffic facilities
based on type, complexity, and the number of trainees. This sample represented 17
percent of all trainees in the system. We collected data from FAA Headquarters
for these 20 facilities that specified which controllers had completed training since
the beginning of fiscal year 2009. We visited 10 of these facilities from our
stratified sample, in addition to the FAA Academy and 3 additional facilities
outside the sample. We validated the completion data, and then accessed FPPS
(FAA Payroll System) and calculated the difference between the date an employee
achieved certification and the date they started training at the facility for all
facilities in the sample. We were able to successfully validate the training times
published in the 2012 Controller Workforce Plan.




Exhibit A. Scope and Methodology
                                                             15


EXHIBIT B. FACILITIES VISITED
Atlanta Air Route Traffic Control Center (ZTL)

Chicago Air Route Traffic Control Center* (ZAU)

Jacksonville Air Route Traffic Control Center* (ZTL)

Memphis Air Route Traffic Control Center* (ZME)

Oakland Air Route Traffic Control Center* (ZOA)

Washington Air Route Traffic Control Center* (ZDC)

Atlanta Terminal Radar Approach Control (A80)

Chicago Terminal Radar Approach Control* (C90)

Southern California Terminal Radar Approach Control* (SCT)

Potomac Terminal Radar Approach Control* (PCT)

Atlanta Air Traffic Control Tower (ATL)

Jacksonville Air Traffic Control Tower* (JAX)

Raleigh-Durham Air Traffic Control Tower* (RDU)


* Facilities visited for data verification sample.




Exhibit B. Facilities Visited
                                                                            16


EXHIBIT C. PRIOR OIG AUDIT REPORTS ON AIR TRAFFIC
CONTROLLER TRAINING
• Enhanced Oversight of Staffing and Training at FAA’s Critical Facilities Is
  Needed To Maintain Continuity of Operations (OIG Report No. AV-2012-
  039), January 12, 2012

• FAA Must Improve Its Controller Training Metrics To Help Identify Program
  Needs (OIG Report Number. AV-2011-072), March 30, 2011

• FAA’s Air Traffic Controller Optimum Training Solution Program: Sound
  Contract Management Practices Are Needed to Achieve Program Outcomes
  (OIG Report No. AV-2010-126), September 30, 2010

• Review of Screening, Placement and Initial Training of Newly Hired Air
  Traffic Controllers (OIG Report Number. AV-2010-049), April 01, 2010

• Training Failures Among Newly Hired Air Traffic Controllers (OIG Report
  No. AV-2009-059), June 08, 2009

• Controller Staffing at Key California Air Traffic Control Facilities (OIG
  Report No. AV-2009-047), April 23, 2009

• Review of the Air Traffic Controller Facility Training Program (OIG Report
  No. AV-2008-055), June 05, 2008

• FAA Has Opportunities to Reduce Academy Training Time and Costs by
  Increasing Educational Requirements for Newly Hired Air Traffic Controllers
  (OIG Report Number. AV-2006-021), December 7, 2005

• Opportunities to Improve FAA’s Process for Placing and Training Air Traffic
  Controllers in Light of Pending Retirements (OIG Report No. AV-2004-060),
  June 02, 2004



All OIG reports are available on our Web site at http://www.oig.dot.gov/.




Exhibit C. Prior OIG Audit Reports on Air Traffic Controller Training
                                                                                    17


EXHIBIT D. OPEN OIG AND RELATED IRP RECOMMENDATIONS

OIG Recommendation: Assign controller candidates to a facility based on
their academy performance in conjunction with data currently available.

IRP Recommendations:

   • Selections for air traffic controller training and selection to a facility should
     be a two step process.
   • A selection algorithm should be developed to aid the selection process.
   • Change the air traffic controller application form so the applicants can
     select one region, one state, or anywhere.
   • Delay the track assignment until after the candidate’s aptitude is assessed
     during initial training at the FAA Academy training and use OJTIs in this
     process.
   • Delay the facility assignment until after the candidate’s aptitude is assessed
     during Academy training and use field management in this process.

OIG Recommendation: Evaluate the AT-SAT and redesign it so that it results
in air traffic controllers being placed at locations according to their skill set.

IRP Recommendations:

   • Offer the Air Traffic Selection and Training (AT-SAT) test through
     existing FAA testing centers.
   • Provide air traffic controller candidates the opportunity to take the AT-
     SAT exam once each year.
   • Conduct a longitudinal study to determine the predictive value of the AT-
     SAT test and institutionalize the process.
   • Correlate specific AT-SAT scores with candidate training performance.
   • In addition to the AT-SAT, other factors should be given appropriate
     weight in the selection decision for air traffic controllers.




Exhibit D. Open OIG and Related IRP Recommendations
                                                                               18


OIG Recommendation: Implement the recommendations of the 2007
Controller training and Development for En Route and Terminal.

IRP Recommendations:

   • The FAA Academy should create a web-based Air Traffic Basics course.
     Completion of this course should be required of all candidates entering
     ATCS training.
   • Provide Air Traffic Basics training via an online module.
   • Expose Academy students to all ATCS track specialties and use contract
     instructors and OJTIs in this role.
   • Incorporate an “advanced” course for all candidates prior to reporting to the
     field units and use OJTIs in this role.
   • Improve the quality of Academy-based training by (a) capturing additional
     performance samples during training, (b) replacing the “pass/fail” grading
     strategy with multi-level performance measures, and (c) providing detailed
     Academy training records to the gaining facility manager.




Exhibit D. Open OIG and Related IRP Recommendations
                                                                     19


EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                           Title

Robert Romich                                  Program Director

Adrienne Williams                              Project Manager

Benjamin Huddle                                Senior Analyst

Doneliya Deneva                                Senior Auditor

Petra Swartzlander                             Senior Statistician

Megha Joshipura                                Statistician

Andrew Sourlis                                 Analyst

Audre Azuolas                                  Writer/Editor




Exhibit E. Major Contributors to This Report
APPENDIX. AGENCY COMMENTS                                                                        20




                    Federal Aviation
                    Administration

Memorandum
Date:      August 1, 2013
To:        Jeffrey B. Guzzetti, Assistant Inspector General for Aviation Audits
From:      H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:   Federal Aviation Administration’s (FAA) Response to Office of Inspector General
           (OIG) Draft Report: Air Traffic Controller Facility Training


Improving air traffic controller training remains a high priority for the FAA. As noted in the
draft report, the framework for planned improvements begins with the implementation of the
Independent Review Panel (IRP) recommendations. Many of those recommendations require
improvements to employee screening, hiring and placement as a precursor to improving training.
Implementation of these recommendations is a complex effort and must be carried out in
conjunction with training program improvements. Activities designed to improve or enhance the
operations of the FAA must deliver sufficient benefit in order to receive necessary resources.

Even in this challenging environment, the FAA has continued to make steady progress in
completing a comprehensive assessment of the air traffic controller curriculum. Coincident with
the curriculum assessment, curriculum improvements are underway for Air Traffic Basics
(conversion to web-based, independent courseware), Initial Tower and Terminal Radar
(instructional design revision to objective grading) and En Route Stage 2-4 (conversion of
courseware to support new automation platforms and instructional design improvements). These
efforts are targeted at improving training and decreasing time to certification depending upon
facility complexity.

The FAA closely monitors the time for candidates to become fully qualified controllers as an
internal metric, which is reviewed quarterly by the Air Traffic Organization (ATO) Chief
Operating Officer. Multiple factors have contributed to the slight increase in training times. Due
to increased controller hiring and retirements the past few years, the FAA has experienced a
training surge at many facilities. Facilities training workload associated with developmental
controller training has risen over the past several years, resulting in less time available for
developmental controllers’ “seat time” with on-the-job-training instructors, resulting in extended
training times. Improving the quality of training through the use of "best practices" and available
simulation to enhance the training curriculum has led to more training and longer qualification
times. Local site training adaptations have lengthened training durations while increasing the
value and quality of training.




Appendix. Agency Comments
                                                                                                  21


The FAA augments federal staff with contract training staff to assist with completing the volume
of developmental training. The major contribution that contract staff offers is initial training of
developmental controllers (about 1/3 of total facility training), skill enhancement training, and
simulator lesson development. Because the developmental surge has matured, most facilities
now face a surge of on-the-job training (approximately 2/3 of the total facility training) that can
only be done by certified controller instructors due to the complexity and experience required.
The FAA is looking for alternative training solutions that would assist in relieving on-the-job
training pressures at some facilities.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Reestablish a training initiatives section into the annual Controller
Workforce Plan that introduces new initiatives and tracks the implementation of initiatives that
are in progress.

FAA Response: Partially Concur. FAA agrees that improved tracking and monitoring of air
traffic controller training initiatives would be beneficial and provide greater transparency and
clarity to FAA's training processes and performance. However, the FAA does not concur that
including this detailed information in the “Controller Workforce Plan” will enhance the utility
of the report for Congress, the general public, or other key stakeholders, as the primary focus of
the document is on hiring and staffing rather than training.

Recently, ATO's Safety and Technical Training group began publishing a semi-annual report
(January and July) on newly hired air traffic controller training times and processes. The
information in these semi-annual reports include, but are not limited to, training performance,
introduction of new training initiatives, and updated status on training initiatives. These reports
are available for review and were provided to the OIG previously. The FAA requests this
recommendation be closed.

Recommendation 2: Develop and implement a formal policy to identify and disseminate
locally developed training initiatives for use as best practices nationwide.

FAA Response: Concur. The ATO’s Safety and Technical Training Office (AJI) previously
reported that the analysis of training programs for technicians was expected to have a completion
date in June 2013. Contract negotiations with the vendor caused the completion date to move to
August 2013 without incurring any additional costs to the FAA.

The ATO’s training policies for air traffic controllers and technicians are contained within
governing training orders. As the ATO gathers the data required to upgrade their training
strategy for the future, AJI will continue to update existing policy for controllers and technicians.
These governing orders will be updated by the end of September 2013 and will include field and
industry best practices such as recurrent training for air traffic controllers.

Once the job task analysis is completed, now planned for August 2013, the ATO will continue
the effort to create a written strategy (policy) which will drive updates to the curriculum.




Appendix. Agency Comments
                                                                                                 22


Barring worsening budgetary pressures, the ATO estimates a first version of the strategy to be
available by March 31, 2014.

Recommendation 3: Develop a policy that establishes how and when any national training
initiatives would be measured for effectiveness.

FAA Response: Concur. The FAA is committed to staff responsibility and accountability for
written evaluation and analyses of technical training initiatives. Subject areas to be considered
during these evaluations include, but are not limited to, cost/benefit analyses, impacts on
developmental time to full qualification, lessons learned, and corrective action recommendations.
AJI-2 expects a written policy to be completed and briefed to all affected AJI-2 personnel by
October 1, 2013.

Recommendation 4: Organize FAA controller training data into a single source that allows
for detailed analysis of all training records for each controller.

FAA Response: Concur. In September 2011, an Independent Review Panel (IRP) provided
recommendations on improving air traffic controller selection, assignment, and training. IRP
recommendation 24 identified the need for the consolidation of multiple databases currently used
for the tracking, storage, and reporting of training data. The IRP’s recommendation highlights
the need for an integrated database for employees’ data from application to
separation/retirement. The implementation of this system should result in the following benefits:
       •   Substantial reductions in redundancy among data management and reporting systems
       •   Ability to leverage enterprise (e.g., agency-wide) data management and reporting
           systems that are centrally managed and maintained
       •   Increased security and reliability of the data management and reporting systems and
           the training data captured

This work is ongoing and the FAA will provide an update on the agency’s progress to the OIG
by July 31, 2014.

Recommendation 5: Evaluate the Operational Assessment Program to determine if it can be
used to improve staffing composition at all critical air traffic facilities.

FAA Response: Partially Concur. The FAA is piloting the Operational Assessment Program
(OAP), which screens applicants who want to transfer to the most complex Terminal Radar
Approach Control (TRACON) facilities. Chicago’s TRACON was the lead facility to use the
program, completing assessments on candidate controllers in FY11-13. The program includes a
knowledge exam and skills assessment as part of the pre-selection criteria, provides the hiring
manager with additional data to consider in making the hiring decisions, and permits candidates
to opt-out of the program as well. OAP is intended to screen applicants for skills to succeed at
the most complex National Airspace System--critical facilities. The FAA collects training
progress and certification rates of candidates selected during this pilot program.




Appendix. Agency Comments
                                                                                                 23


The FAA is still evaluating this program. Southern California and Atlanta TRACONs were
among the OAP pilot sites, but will not continue offering the OAP selection because of the
investment required and the number of vacancies at these two facilities has decreased. The FAA
invested in site-specific development and selection/training for key staff at only three OAP sites.
OAP materials are site-specific and cannot be used at other TRACONs without the FAA
committing to costly revisions and development necessary to offer OAP at new facilities.

Earlier in FY13, all hiring and training was suspended due to budget shortfalls. Because the
FAA’s budget for FY14 is presently unknown, it is difficult to speculate on the number of OAP
opportunities that can be afforded. The FAA concurs with the need to evaluate the OAP, and
will provide the OIG with an update by September 30, 2014.




Appendix. Agency Comments
